Supreme Court, U.S.
FILED

No.

JUL 2 0 2020

ja-75

OFFICE OF THE CLERK

In The

Supreme Court of the United States

The S/V ‘Glori B’; Jeffrey G. Heston,
Petitioners
v.
G. B. Capital Holdings, LLC.,
Respondent

On Petition For Writ Of Certiorari
To The United States Court of Appeals For
The Ninth Circuit

PETITION FOR WRIT OF CERTIORARI
Jeffrey G. Heston
Petitioner Pro Se
320 Yukon Terrace,
Georgetown, Texas 78633
(619) 850-8393

RECEIVED
JUL 2 7 2020

Questions Presented For Review
In 2002, the San Diego Unified Port District
ended the long-standing practice of “free anchorage”
in San Diego bay. Using its police authority, the Port
District mandated that all vessels must move to take
up berthing at a Port facility, in this case of a private
vessel, either a marina or mooring ground. Failure to
do so would result in civil and criminal penalties.
Such mandate forces a contract between the Port
District through its concessionaires and the owner of
the vessel. The contract at issue contains a provision
providing for arbitration in the case of disputes.
I. Does such a contract obtained in this manner
sustain a determination of a “free and fair”
formation on grounds equitable to both parties
under the Federal Arbitration Act.
II. Does this contract sustain an interpretation as
a maritime contract necessary for the district
court’s jurisdiction pursuant to 46 USC
§31301, etseq.
III. Does this contract sustain an interpretation as
one of interstate commerce necessary for the
jurisdiction of the Federal Arbitration Act.

i

Related Cases
• Heston v. G.B. Capital Holding, LLG, No.
16-cv-912, U.S. District Court for the
Southern District of California. Judgment
entered August 24, 2016.
• Heston v. G.B. Capital Holdings, LLC., No.
18-55125, U.S. Court of Appeals for the
Ninth Circuit. Judgment entered on
August 21, 2018.

u

Table of Contents
Questions Presented For Review....
Related Cases....................................
Table of Authorities------------------Petition for Writ of Certiorari.........
Opinions Below.................................
Jurisdiction.......................................
Statutory Provisions Involved.........
Statement of the Case......................
Allowing the Writ.............................
Conclusion.........................................

1

u
IV

1
1
1
1
2

4
7

APPENDICES
Appendix l
Appendix 2
Appendix 3
Appendix 4
Appendix 5
Appendix 6

l
3

17
19
24
32

m

Table of Authorities

iv

Petition for Writ of Certiorari
The Sailing Vessel ‘Glori B’ and her interested
party Jeffrey G. Heston respectfully petition this
court for a writ of certiorari to review the judgment
of the Ninth Circuit Court of Appeals in this matter.
Opinions Below
The memorandum opinion (Appendix l) of the
Ninth Circuit Court of Appeals addressing the first
and second questions presented is unpublished. The
district court’s order for sale of the vessel and the
liquidation of her assets (Appendix 2) is unpublished.
The memorandum opinion of the Ninth Circuit Court
of Appeals addressing the first, second and third
questions (Appendix 3) is unpublished. The district
court’s order for arbitration and dismissal is
unpublished. The district court’s opinions denying
petitioner relief from its order (Appendices 4,5) are
unpublished. The District Court’s order compelling
arbitration and dismissing action (Appendix 6) is
unpublished.
Jurisdiction
The circuit court filed its judgment on April
21, 2020. This court derives a jurisdiction to review
from 28 USC § 1254(1).
Statutory Provisions Involved
The district court, in its order of sale, cites as
its jurisdiction 46 USC §31301, et seq.,\ specifically
46 USC §§31326(a),(b)(l): “’When a vessel is sold by
order of a district court in a civil action in rem
1

brought to enforce a preferred mortgage lien or a
maritime lien’ a ‘preferred mortgage lien has priority
over all claims against the vessel (except
for...preferred maritime liens)’”, and §31301(5): “A
preferred maritime lien is defined as a ‘maritime lien
on a vessel[,] (A) arising before a preferred mortgage
was filed...,(B) for damage arising out of maritime
tort; (C) for wages of a stevedore...; (D) for wages of
the crew of the vessel; (E) for general average; or (F)
for salvage, including contract salvage”
The district court, in its order to compel
arbitration and dismissal, cites 9 USC §§ 2- “Section
2 of the FAA provides. ‘ A written provision in any...
contract evidencing a transaction involving
commerce to settle by arbitration a controversy
thereafter arising out of such contract or
transaction... shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law
or in equity for the revocation of any contract,” and 9
USC §4: “A party aggrieved by the alleged failure,
neglect, or refusal of another to arbitrate under a
written agreement for arbitration may petition any
United States district court which, save for such
agreement, would have jurisdiction under Title 28, in
a civil action or in admiralty of the subject matter of
a suit arising out of the controversy between the
parties, for an order directing that such arbitration
proceed in the manner provided for in such
agreement.”.
Statement of the Case
The heart of the matter resides in a contract
ostensibly entitled “Maritime Contract for Private
Wharfage”, a paper which provided, for a fee, a vessel
2

mooring in one of several mooring fields operated by
G.B. Capital Holdings, LLC., as agent for the San
Diego Unified Port District.
A controversy had arisen over a provision
demanding the vessel be inspected — the agent
holding to one term, the petitioner to another equal
term. At some point during the owner’s absence, the
agent GB Capital removed the vessel from its
mooring, at first failing to notify the petitioner of the
removal of the vessel, then refusing to inform the
petitioner of the vessel’s whereabouts. Only after
intervention by the US Coast Guard and the San
Diego Unified Port District police did the agent
reveal the location of the vessel - under lock and key
at another of the agent’s managed concessions. After
repeated refusals to allow the petitioner access to the
vessel, the lock to the impound was removed by the
San Diego Unified Port District police and the
petitioner was allowed access to his vessel. Upon
inspection, the condition of the vessel was found to be
a complete ruin: much of her sailing gear; sails,
controls, navigation equipment and personal crew
gear was found to be missing, making her impossible
to sail. The cabin had been ransacked and much
personal property had been removed. GB Capital’s
response to demands for the return of the missing
property was to “take the boat and go”.
In response, Heston filed a civil action in
admiralty to compel GB Capital to return the
property to the vessel and the vessel to its (paid for)
mooring. The agent moved to compel arbitration in
accordance with an arbitration provision of the
contract.
The district court, finding that the contract
evinced commerce and, citing the FAA, granted GB
3

Capital’s motion compelling arbitration and the
matter was dismissed. Petitioner Heston filed two
Fed. R. Civ. Proc. 60(b) motions for relief, contending
on various grounds insufficient jurisdiction- that the
contract did not conform to the meaning of commerce
as defined in 9 USC §1; that the use of the term
“wharfage contract” as applied to this context was a
misnomer in that the contract did not in any way
actually represent the clearly understood meaning of
“wharfage” nor did GB Capital actually provide
wharfage; and that the formation of the contract was
not in keeping with the principle of fair contract
rules, thereby making it unconscionable. The district
court denied the 60(b) motions and Heston appealed.
The circuit court considered only the second
60(b) motion for abuse of discretion and refused to
consider the underlying question of jurisdiction.
Prior to the circuit court’s decision, GB Capital
initiated the current matter, again presenting the
contract as one of a maritime character and the basis
of a maritime lien. The district court concurred, the
vessel was arrested and sold pursuant to 46 USC
§31301 et seq.. Again, Heston appealed on the same
grounds of jurisdiction as before, and the circuit
court found his arguments meritless.
Allowing the Writ
The basis for the lower court’s original
jurisdiction in this matter is a civil complaint in
admiralty filed by Heston in the U.S. District Court
for the Southern District of California on April 15,
2016. It is relevant here for the Order to Compel
Arbitration and Dismissal of the Action found
therein. (Appendix 6). This Order is cited and serves
as justification for the Interlocutory Order for Vessel
4

Sale (Appendix 2). The Circuit Court “reviewed de
novo
the
district
court’s
conclusions
of
law...’’(Appendix 1).
It is the Circuit Court’s affirmation that
Heston appeals.
The entire matter before this Court rests on
the Order to Compel Arbitration and Dismissal, a
conclusion of law.
Heston has argued various reasons why the
Order should not have been issued. None — save one
— has made it into the record now before this Court.
The lower court has decided that the Contract
at issue is valid. The court has determined that
abroad writing of the Contract encompasses all
questions and relegates the resolution of those
questions to arbitration with one exception- the
Contract exempts in rem actions against the vessel.
In the original complaint, clearly stated on its
face, is the characterization of the suit as an action
in rem. This characterization is also visible in the
civil cover sheet attached to the complaint. In plain
view of this characterization, GB Capital answered
without objection, and the court allowed the suit to
proceed even so far as to docket an Early Neutral
Evaluation Conference.
Heston has argued that, by answering, GB
Capital has consented to proceed; and by allowing
the suit, the court has agreed; that the exemption to
the mandatory arbitration clause was in
force.(Appendix 5). Heston has argued in his first
Rule 60(b) that, in so doing, the court and GB Capital
were estopped from then asserting the arbitration
clause, having made the election.. It is only later
does the court and GB Capital reverse course and
demand arbitration.

5

Normally, all questions (such as formation and
performance) are bound in an arbitration agreement
and are not permitted to be admitted by the court.
However, in this instance, all questions and issues
are fully before the court and reachable by the
Plaintiff. Even if the arbitration clause were to later
be imposed, the admissions made in the answer and
other papers properly lodged within the record are
admissible and cognizable by the court. Heston
argues that, once having received them in the record,
what ever matters that flow from those admissions
made during the time the matter properly resided in
court are freed from the constraints of the arbitration
clause and must be fairly considered by the court.
Heston contends that such questions as contract
performance are still arbitrable, but the legality of
taking the vessel, a question raised while the matter
resided in court, is still in court - the court was in
fact, the arbitrator. By dismissing, the court has
denied Heston his right to petition for redress of
those wrongs. GB Capital did not contest the taking
of the vessel by shielding its actions with the
arbitration clause, it openly admitted them into the
record in an answer during an active proceeding. GB
Capital freely admitted that it took the ‘the vessel
without proper authority.
Heston argues that the matter of the taking of
the “Glori B” has already been admitted to the court
as has other ancillary matters.
Had the court allowed the adjudication of
those controversies admitted into the record, it is
very likely the interlocutory order and the
deprivation of Heston of his beloved boat would not
have been possible.
Heston prays the Court bring up the record
and review de novo the questions and objections
6

raised by Heston in the lower courts on matters
properly
raised,
such
as
the
improper
characterization of the Contract as maritime in
nature, or the opportunity for the ‘Court to see for
itself how a local contract can be misused to invoke
the Federal Arbitration Act. The Court shall find
that the conclusions of law not fairly considered will
require its attention
If the Court finds error, then the Interlocutory
sale is an improper taking of Heston’s property
Conclusion
The S/V “Glori B” and her interested party
humbly submit this cause to the Court for
consideration, in the hope that the Court will come to
see the harm in the conduct of this matter? that the
Court see fit to correct the injustice that occurred.
DATED: July 20, 2020
/s/
Jeffrey G. Heston
Petitioner Pro Se
320 Yukon Terrace
Georgetown, Texas 78633
(619)850-8393

7

